                                         2



(CAAR) Branch. Accordingly, we ask that no action be taken concerning the report's
findings without first consulting with CAAR at (703) 292-8244.

We thank your staff for the assistance that was extended to our auditors during this
audit. If you have any questions about this report, please contact me at (703) 292-
4985 or Jannifer Jenkins at (703) 292-4996.


Attachment

cc: Mr. Norman Fortenberry, Division Director (Acting), EHR/DUE
        CITY COLLEGE OF SAN FRANCISCO
                   33 Gough Street
               San Francisco, CA 94103
      National Science Foundation Award Number
                     DUE-9850325

                   Financial Schedules
                           and
             I ndependent Auditors' Reports

For the Period September 1, 1998 to September 30, 2001




                                              CONRAD AND ASSOCIATES, L.L.P.
                                                    Certified Public Accountants
                                                      1100 Main Street, Suite C
                                                          I rvine, California 92614
EXECUTIVE SUMMARY
5
FINDINGS AND RECOMMENDATIONS'
National Science Foundation
Office of Inspector General
(Continued)

funding by NSF; or (ii) in entities whose financial interests would reasonably appear to be affected by
activities. The term "investigator" means the principal investigator, co-principal investigators, and any other P
at the institution who is responsible for the design, conduct, or reporting of research or educational act
funded or proposed for funding by NSF."

City College of San Francisco has a conflict of interest policy in place, however; only certain members c
college are required to complete a financial disclosure statement. The principal investigator for award 1
9850325 was not one of those required to complete a disclosure form, because they were unaware c
requirement.

As a result of the College's failure to require its principal investigator to complete a financial disclosure states
City College of San Francisco did not determine whether any financial interests of the investigators would
affected by the research or educational activities funded or proposed for funding by NSF. Similarly, the
was unable to determine if the principal investigator had any financial interests in entities whose financial
would reasonably appear to be affected by such activities to the extent that it could directly and significantly;
the design, conduct, or reporting of NSF-funded research or education activities.

Recommendation No. I - Conflict of Interest Policy - We recommend that NSF's Division Directors
Division of Acquisition and Costs Support (DACS) and the Division of Grants and Agreements (DGA)
City College of San Francisco revise and implement its conflict-of-interest policy and procedures to ensure the
principal investigators complete the required financial disclosure statements.

Awardee Comments

City College of San Francisco does have a financial disclosure statement from the Chief Financial Office
signs the contracts with consultants and subcontractors. The District concurs with the finding that the Invest
was not required to file a financial disclosure agreement. The District will move to implement the current
recommendation by requiring the Investigator to file a financial disclosure agreement.

Auditors' Response

The awardee's comments are responsive to the recommendation.

Finding No. 2 - Travel Policy Enforcement - City College of San Francisco did not comply with its travel

OMB Circular A-21, Section J, Subsection 48.A 'Travel Costs' states in part that travel costs may be charged
basis that "...results in a reasonable charge, and is in accordance with the institution's travel policy and pray
consistently applied to all institutional travel activities." Furthermore, applicable OMB Circular A-21, Sect
Subsection 48.B 'Lodging and Subsistence' states: "Costs incurred by employees and officers for travel, ind
the costs of lodging, other subsistence, and incidental expenses, shall be considered reasonable and ally
only to the extent such costs do not exceed charges normally allowed by the institution in lets regular operatic
a result of an institutional policy and the amounts claimed under sponsored agreements represent reasonable
allocable costs."

City College of San Francisco, on several occasions, reimbursed employees for lodging costs, which
the allowable amount per the College's travel policy. The College's policy indicates that lodging costs,
taxes, will be reimbursed subject to the maximum limit established by the Federal Per Diem Rate Guideline
i n practice, the Chief Financial Officer could approve costs over the Federal per diem, although that
reflected in the policy.




                                                            9
National Science Foundation
Office of Inspector General
(Continued)

The College's failure to comply with its travel policy as required by OMB Circular A-21 reduces the College's ability
to ensure that travel costs charged to NSF are allocable, allowable, and reasonable, in accordance with the award
terms and conditions. As a result, we have questioned $1,241 of lodging costs that exceeded the College's
adopted policy. (See Schedule of Questioned Costs, Schedule B, Note B-1).

Recommendation No. 2 - Travel Policy Enforcement - We recommend that NSF's Division Directors of DACS
and DGA ensure that City College of San Francisco revise and implement its written policies and procedures
ensuring that charges for travel costs are in compliance with its travel policy and OMB Circular A-21.

Awardee Comments

The Chief Financial Officer can approve travel order reimbursements above the Federal per diem rates for high
cost areas provided that receipts clearly evidence the expenditure and the amounts are reasonable and allocable.
I n every case, a receipt did accompany travel reimbursements by City College of San Francisco employees.

The District will ensure that its current written policies include the following statement:

I n situations where the lodging cost is quoted as being greater than the "Maximum lodging amount" listed in the
City College Official Lodging and Per Diem Manual then an exception to that specific rate must be requested and
approved by the Chief Financial Officer, on a case by case basis, in order to be reimbursed for the greater lodging
amount.


Auditors' Response

The awardee's comments are responsive to the recommendation.

                               I NTERNAL CONTROL OVER FINANCIAL REPORTING

The management of City College of San Francisco is responsible for establishing and maintaining internal control.
I n fulfilling this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies and procedures. The objectives of internal control are to
provide management with reasonable, but not absolute assurance that assets are safeguarded against loss from
unauthorized use or disposition, and that transactions are executed in accordance with management's
authorization and recorded properly to permit the preparation of financial schedules in accordance with accounting
principles prescribed by the National Science Foundation. Because of inherent limitations in any internal control,
errors or irregularities may nevertheless occur and not be detected. Also, projection of any evaluation to future
periods is subject to the risk that procedures may become inadequate because of changes in conditions or that
the effectiveness of the design and operation of policies and procedures may deteriorate.

I n planning and performing our audit of Schedule A for the period September 1, 1998 to September 30, 2001, we
obtained an understanding of the City College of San Francisco's internal control over financial reporting. With
respect to internal control over financial reporting, we obtained an understanding of the design of relevant policies
and procedures and whether the procedures have been placed in operation. Furthermore, we assessed control
risk in order to determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide an opinion on internal control. Accordingly, we do not express such an opinion.

Our consideration of internal control over financial reporting would not necessarily disclose all matters related to
i nternal control over financial reporting that might be reportable conditions under standards established by the
American Institute of Certified Public Accountants. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal control over financial reporting that, in
our judgment, could adversely affect the entity's ability to record, process, summarize and report financial data in a
manner that is consistent with the assertions of management in the financial schedule.




                                                            10
National Science Foundation
Office of Inspector General
(Continued)

A material weakness is a reportable condition in which the design or operation of one or more of internal control
elements does not reduce to a relatively low level the risk that misstatements in amounts that would be material in
relation to the financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of inherent limitations, in internal
control, misstatements due to error or fraud may nevertheless occur and not be detected.

We noted the following matters involving San Francisco's internal control over financial reporting and its operation
that we consider to be reportable conditions under the standards established by the American Institute of Certified
Public Accountants. However, we do not believe any of the reportable conditions are material weaknesses.


Finding No. 3 - Consultants - City College of San Francisco entered in several service agreements with
consultants and failed to perform a cost/price analysis for the services rendered and did not have policies or
procedures regarding the selection of consultants.

OMB Circular A-110, Subpart C, §_.45 'Cost and Price Analysis', requires; "Some form of costs or price analysis
shall be made and documented in the procurement files in connection with every procurement action. Price
analysis may be accomplished in various ways, including the comparison of price quotations submitted, market
prices and similar indicia, together with discounts. Cost analysis is the review and evaluation of each element of
cost to determine reasonableness, allocability, and allowability."

OMB Circular A-110, Subpart C, §_.46 'Procurement Records' states; "Procurement records and files for
purchases in excess of the small purchase threshold shall include the following at a minimum: (a) basis for
contractor selection, (b) justification for lack of competition when competitive bids or offers are not obtained, and
(c) basis for award cost or price.

City College of San Francisco's procurement records did not document the selection process taken by the College
i n retaining consulting services. College personnel have indicated that consultants were selected based on
reputation and past performance. No formal bid process was taken to screen and select consultants.

As a result of City College of San Francisco's failure to document the selection process of consultants, it was
unable to show that a fair and unbiased search for consultant was performed, thus reducing the College's ability to
ensure that it was getting the best price for services purchased with NSF funds. No costs were questioned
because additional documentation and discussions with grantee personnel supported the costs charged to the
grant.

 I n addition, City College of San Francisco entered into several agreements with consultants to perform certain
services for a fixed fee. These agreements stipulate lump sum payments to be paid for the services, but the
i nvoices did not provide cost detail related to the payment amount. We noted over $238,000 of costs, which were
not properly supported with invoices detailing the time spent for services rendered. Without a detailed invoice we
were unable to determine if the College was in compliance with NSF regulations limiting the amount paid to
consultants on a daily basis. However, no costs were questioned, because we were able to substantiate, through
corroborating inquiries, that services were rendered and allowable. (See Schedule B, Note B-2.)

Recommendation No. 3 - Consultants - We recommend that NSF's Division Directors of DACS and DGA
ensure that City College of San Francisco develop and implement written policies and procedures ensuring that
(a) the selection process for consultant services is properly documented, (b) the price paid for consultant services
i s reasonable, and (c) the rates reimbursed to consultants are within the maximum daily rates allowable under
Federal law.




                                                        11
National Science Foundation
Office of Inspector General
( Continued)

Awardee Comments

The District maintains competitive bidding as follows (excluding personal services contracts, see Section 53060 of
the California Code of Regulations): Any purchase or contract over $58,900 must be competitively bid via
publication in the public record for 2 weeks, as per Section 20651, Public Contract Code. Purchases between
$2,000 and $49,999 are i nformally bid, as per City College of San Francisco policy. The lowest responsible
bidder receives the order. Public works contracts over $15,000 are awarded competitively, as per Public Contract
Code Section 20661.

The City College of San Francisco's Board of Trustees must approve exclusive contracts over $10,000 -
Contracts under $10,000 require the signature of the Vice Chancellor of Finance & Administration and/or his
designees.

The District's current procurement process is initiated when an individual completes either a paper form request
for Supplies, Materials, Equipment or Services or an electronic requisition and submits it to the Purchasing
Department. The Purchasing Department will review the request and make a determination for required and/or
needed comparison price analysis prior to approving the purchase request and forwarding the order to a vendor.
While in the case of each informal order documentation may not be specifically maintained in the file, the
Purchasing Department always completes some form of price analysis whether it be comparing prices via
catalogs; existing open contracts for supplies, materials and equipment; a telephone call to a couple of vendors; or
accessing information through the Internet.

The District concurs with the portion of this finding regarding Special Services and Advice Agreements with
consultants. The District will be developing and implementing a policy change with respect to the bidding of service
contracts in order to comply with the requirements of OMB Circular A-110 §_.46.

However, the $238,000 of questionable service agreements are for the Co-PI, who assisted in writing the original
grant and who was accepted as Deputy Director of Bio-Link by NSF from the onset. The other questionable
agreement is for the evaluator for the grant, who was suggested and approved by NSF. Both of these key persons
provided experience and training that uniquely prepared them for their positions. Because each person's skills
were unique, there was no basis for a competitive bid process.

Auditors' Response

The auditee's comments are responsive to the recommendation relating to the development and implementation
of a policy change with respect to the bidding of service contracts for consulting services as required of OMB
Circular A-110 §_.46. However, we believe the auditee's response regarding the $238,000 fixed fee service
agreement has not properly addressed the internal control finding. Consultants were contracted for a fixed fee to
perform certain agreed-upon services. However, the auditee was paying the consultants a negotiated price
without obtaining detailed invoices to indicate the type of services actually performed or time spent on the project.
Without a detailed invoice, we were unable to determine if the College was in compliance with NSF regulations
li miting the amount paid to consultants on a daily basis. Therefore, we will continue to recommend that City
College of San Francisco develop and implement written policies and procedures to ensure that rates reimbursed
to consultants are within the maximum daily rate allowed by Federal Law.

Finding No. 4 -ActivityReporting - City College of San Francisco did not require all employees to complete
activity reports to indicate effort expended on the award.

OMB Circular A-21, Section J, Subsection 8.C, Paragraph (2) states in part: "...salaries and wages by the
i nstitution will be supported by activity reports as prescribed below. (a) Activity reports will reflect the distribution of
activity expended by employees covered by the system... (b) These reports will reflect an after-the-fact reporting




                                                             12
National Science Foundation
Office of Inspector General
( Continued)

of the percentage distribution of activity of employees. Charges may be made initially on the basis of estimates
made before the services are performed, provided such charges are promptly adjusted if significant differences
are indicated by activity reports. (c) Reports will reasonably reflect the activities for which employees are
compensated by the institution. To confirm that a distribution of activity represents a reasonable estimate of the
work performed by the employee during the period, the reports will be signed by the employee, principal
i nvestigator, and/or responsible official(s) using suitable means of verification that the work was performed. (d)
The system will reflect activity applicable to each sponsored agreement and to each category needed to identify
F&A [Facilities and Administrative] costs and functions to which they are allocable... (e) For professorial and
professional staff, the reports will be prepared each academic term, but no less frequently than every six months.
For other employees, unless alternate arrangements are agreed to, the reports will be prepared no less frequently
than monthly and will coincide with one or more pay periods."

City College of San Francisco did not require salaried employees to complete activity reports to indicate effort
expended on the NSF grant. Employee's salary is charged to the grant based on the percentage of time assigned
to the grant. Employees are assumed to have worked 40 hours a week unless indicated with absence forms
and/or vacation requests. Employees are, however, required to complete timesheets for time spent in excess of
40 hours a week.

Claimed costs for salaries, wages and fringe benefits represent nearly 30% of total claimed costs. City of San
Francisco's failure to maintain time keeping records as required by OMB Circular A-21 reduces the College's
ability to provide assurance that salary and wages charged to NSF are allocable, allowable, and reasonable, in
accordance with award terms and conditions. No costs were questioned because discussions with several
different personnel corroborated the amounts charged to the grant. Effective July 1, 2001, the College has
i mplemented new written policies and procedures requiring employees to complete activity reports indicating
actual effort expended on NSF activities. We have reviewed the time sheets subsequent to July 1, 2001 and
noted the College had properly complied with OMB Circular A-21.

Recommendation No. 4 - Activity Reporting - We recommend that NSF's Division Directors of DACS and the
DGA ensure that City College of San Francisco continue to adhere to its current policies and procedures and
ensure that charges for salaries and wages are adequately supported with detailed activity reports as required by
OMB Circular A-21.

Awardee Comments

As noted in the finding, the District has implemented time sheet reporting for all grant related payroll expenditures
effective July 1, 2001.

Auditors' Response

The awardee's comments are responsive to the recommendation.


Finding No. 5 - Subcontract Monitoring - City College of San Francisco did not require subcontractors to
submit supporting documentation along with the reimbursement form and therefore did not adequately monitor the
subcontractor's activities.

OMB Circular A-110, Subpart C, §_.51(a) Monitoring and reporting program performance requires that:
"Recipients are responsible for managing and monitoring each project, program, subcontract, function or activity
supported by the award."




                                                         13
National Science Foundation
Office of Inspector General
(Continued)

City College of San Francisco does not require subcontractors to submit supporting documentation along with the
reimbursement forms. City College of San Francisco reimburses the subcontractor based on the submitted
reimbursement forms and relies on the subcontractor to maintain the supporting documentation.

As a result of the College's failure to obtain and review the documentation supporting the reimbursement forms,
City College of San Francisco's ability to efficiently and effectively manage and monitor expenditures and activities
by the subcontractor, which are supported with NSF funds, is compromised.

From the total amount of $1.077,998 of subcontractor costs claimed (42% of total costs claimed), we selected a
sample of $655,939 (61% of total subcontractor costs claimed) for review. Reimbursement forms properly
supported the amounts selected for review. We then selected a sub-sample from the reimbursement forms for
further review and requested that documentation supporting the amounts be submitted from the subcontractor for
our review, since they were not available from the College.      Based on our review, we questioned a total of
$50,601 of subcontractor costs because they were unsupported. (See Schedule of Questioned Costs. Schedule B.
Note B-3). These questionable subcontractor billings could have been detected by the College and prevented it
from improperly charging NSF, had it properly reviewed supporting documentation.

Recommendation No. 5 -Subcontract Monitoring - We recommend that NSF's Division Directors of DACS
and DGA ensure that City College of San Francisco develop and implement policies and procedures to ensure
appropriate managing and monitoring of subcontractor's costs, including obtaining and reviewing documentation
supporting reimbursement forms in accordance with OMB Circular A-110.

Awardee Comments

The District reviews the Audited Financial Reports for each of the subcontract colleges and looks specifically for
material control weaknesses that would require greater subcontract review. Subcontractors provide a narrative
with reimbursement requests. Each of them keeps supporting documentation at their respective colleges. The P1
does travel to the subcontract sites and does monitor their effort expended. The District will be developing and
i mplementing a policy change with respect to the requirements for subcontractors to submit supporting
documentation along with reimbursement forms in order to comply with the requirements of OMB Circular A-110
§_.51.

Auditors' Response

The awardee's comments are responsive to the recommendation.

We considered these internal control weaknesses in forming our opinion on whether Schedule A presented fairly
i n all material respects, in conformity with National Science Foundation policies and procedures, and determined
this report does not affect our report dated April 3, 2002 on the financial schedule.

This report is intended solely for the information and use of the College's management, the National Science
Foundation, the Office of Management and Budget, and the Congress of the United States and is not intended to
be and should not be used by anyone other than these specified parties.



                                                                   .
I rvine, California
April 3, 2002




                                                        14
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
THIS PAGE HAS BEEN
     REDACTED
                                                                                              SCHEDULE B

                                     CITY COLLEGE OF SAN FRANCISCO
                           National Science Foundation Award Number DUE - 9850325
                                          Schedule of Questioned Costs
                                 From September 1, 1998 to September 30, 2001

                                                       ( Continued)

Note B-1   Travel Expense, (Continued)

           Awardee Response, (Continued)

           Fund 121192 activity included a shared room at the BIO 2000 conference where the PI was both a
           speaker and an exhibitor. The travel request clearly stated that the room was shared (including
           the name of the individual). The cost for the PI was actually half of the calculated rate, which
           resulted in a cost far less than the allowable rate.

           Original receipts supporting the request for reimbursement evidenced the amounts "over" the
           allowable rate and the amounts are reasonable and allocable for the location and event.

           Fund 121193 activities included the NISOD in 2000. The PI was a speaker and stayed at a
           conference hotel because there were none available at a lower cost that did not require additional
           transportation such as a car rental and parking costs.

           Auditors' Response

           We concur with the auditee's statement that original receipts accompanied each reimbursement
           request. However, when there was a case, which the rate incurred exceeded the allowable
           amount, there was no evidence the higher rate was approved by the Chief Financial Officer of the
           College. Therefore, the questioned costs of $1,241 remains as stated.



Note B-2   Consulting Costs

           During our review of consulting costs, we noted numerous situations where the College entered
           i nto fixed fee contracts with several different consultants. In each case, the consultant did not
           submit an invoice detailing out the days worked and/or services rendered. Each consultant was
           paid the agreed upon fixed fee and the only supporting documentation was the signed contract.
           Through discussions with College personnel, we were able to determine that the services were
           rendered. However, without a detailed invoice, we are unable to determine the daily rate paid to
           each consultant.

           National Science Foundation, Grant Policy Manual, Section 616.1 (c), regarding Outside
           Consultants states in part: "...payment for consultant's services may not exceed the daily
           equivalent of the then current maximum rate paid to an Executive Schedule Level IV Federal
           Employee..."




                                                  17
                                                                                                   SCHEDULE B

                                          CITY COLLEGE OF SAN FRANCISCO
                                National Science Foundation Award Number DUE - 9850325
                                              Schedule of Questioned Costs
                                      From September 1, 1998 to September 30, 2001

                                                           ( Continued)

Note B-2 Consulting         Costs, (continued)

               I n addition, the College entered into several agreements with consultants to perform certain
               services for a fixed fee. Since we were able to determine that services were rendered and related
               to NSF activities, no costs were questioned. However, we recommended that the City College of
               San Francisco develop and implement written procedures to ensure that rates reimbursed to
               consultants are within the maximum daily rate allowed by Federal Law. See the Independent
               Auditors' Report on Compliance with Laws and Regulations and Internal Controls for a full
               discussion of internal control weaknesses concerning consultant costs in Section II.

               Awardee Comment

               Consultant expenses over $238,000 were indeed supported with proper invoices based on the
               contracts with the consultants. Both the Co-PI and the evaluator do not work on the basis of
               billable hours. They receive a fixed fee for services rendered.

              The selection of consultants was done with full approval of the National Science Foundation. The
              Co-PI assisted in writing the original grant proposal and was included in the original grant as the
              Co-PI while the evaluator was approved by the National Science Foundation as the Center
              Evaluator.

              Auditors' Response

              Notwithstanding the auditee's response, the auditee should negotiate the fixed price agreement
              with documentation showing that the price was based on rates below the maximum daily rate of
              pay, or the individuals in question should be submitting invoices sufficient in detail to ensure
              compliance with NSF's Grant Policy Manual, Section 616.1.

Note B-3      Subcontract Costs

              During our of review of subcontract costs, we noted that City College of San Francisco did not
              require subcontractors to submit supporting documentation along with the reimbursement forms.
              From the general ledger, we used our judgment to select a nonstatistical sample of subcontractor
              costs claimed and requested that the supporting documentation be provided by the
              subcontractors for our review. Over a period of a month, numerous requests were made to the
              subcontractors to provide the proper documentation to support the amounts claimed on the
              reimbursement forms. Based on the documentation ultimately provided, we noted the following
              conditions:

              a)   Documentation provided was often insufficient to determine allowability and reasonableness.
              b)   Duplication of costs.
              c)   Missing time sheets.
              d)   Lodging rates exceeding College's Adopted Travel Policy.
              e)   Supporting documentation was not always provided.




                                                      18
                                                                                                SCHEDULE B

                                  CITY COLLEGE OF SAN FRANCISCO
                        National Science Foundation Award Number DUE - 9850325
                                      Schedule of Questioned Costs
                              From September 1, 1998 to September 30, 2001
                                                 (Continued)

Note B-3       Subcontract Costs, (continued)

       OMB Circular A-110, Subpart C, §_.51 (a) Monitoring and reporting program performance requires
       that: "Recipients are responsible for managing and monitoring each project, program,
       subcontract, function or activity supported by the award. Recipients shall monitor subcontracts to
       ensure subrecipients have met the audit requirements as delineated in §_.26."

       OMB Circular A-110, Subpart C, §_.53 (b) states: "Financial records, supporting documents,
       statistical records, and other records pertinent to an award shall be retained for period of three
       years from the date of submission of the final expenditure report..."

       National Science Foundation, Grant Policy Manual, Section 350 (a), Records Retention and Audit
       states: "Financial records, supporting documents, statistical records and other records pertinent to
       a grant will be retained by the grantee for a period of three years from submission of the Final
       Project Report..."

       OMB Circular A-21, Section J, Subsection 8.C, Paragraph (2) 'After-the-Fact Activity Records'
       states in part: "...salaries and wages by the institution will be supported by activity reports as
       prescribed below. (a) Activity reports will reflect the distribution of activity expended by employees
       covered by the system... (b) These reports will reflect an after-the-fact reporting of the percentage
       distribution of activity of employees. Charges may be made initially on the basis of estimates
       made before the services are performed, provided that such charges are promptly adjusted if
       significant differences are indicated by activity reports. (c) Reports will reasonably reflect the
       activities for which employees are compensated by the institution. To confirm that a distribution of
       activity represents a reasonable estimate of the work performed by the employee during the
       period, the reports will be signed by the employee, principal investigator, or responsible official(s)
       using suitable means of verification that the work was performed. (d) The system will reflect
       activity applicable to each sponsored agreement and to each category needed to identify F&A
       costs and functions to which they are allocable... (e) For professorial and professional staff, the
       reports will be prepared each academic term, but no less frequently than every six months. For
       other employees, unless alternate arrangements are agreed to, the reports will be prepared no
       l ess frequently than monthly and will coincide with one or more pay periods."

       OMB Circular A-21, Section J, Subsection 48(a), Travel Costs - General states in part that travel
       costs, "...may be charged on actual basis, on a per diem or mileage basis ... provided the method
       used is applied to an entire trip and ... results in reasonable charges, and is in accordance with the
       i nstitution's travel policy and practices consistently applied to all institutional travel activities."

       OMB Circular A-21, Section J, Subsection 48(b), Travel Costs - Lodging and Subsistence states:
       "Costs incurred by employees and officers for travel, including costs of lodging, other subsistence,
       and incidental expenses, shall be considered reasonable and allowable only to the extent such
       costs do not exceed charges normally allowed by the institution in its regular operations as a
       result of an institutional policy and the amounts claimed under sponsored agreements represent
       reasonable and allocable costs..."




                                                 19
                                                                                                         SCHEDULE B

                                            CITY COLLEGE OF SAN FRANCISCO
                                  National Science Foundation Award Number DUE - 9850325
                                                 Schedule of Questioned Costs
                                        From September 1, 1998 to September 30, 2001

                                                               (Continued)
Note B-3         Subcontract Costs, (continued)

      Awardee Comments

      a) Duplication of costs was cited. The process for the Summer Fellows Institute requires the National
         Center to pay the up front deposit and total cost. In turn, the subcontractors pay this back to the
         National Center from their subcontracts. It appears that there is duplication when in reality it is a
         transfer of reimbursement between the grantee and subcontractor to distribute the workload among the
         regional centers. (The awardee response, attached as Appendix A, included acknowledgement
         receipts from the Bio-Link Director and PI for 3 duplicate payments questioned in the draft report.)

      b) Time sheets are generally not required of faculty members at the participating colleges.

      c)    Lodging rates for the subcontractors are based on the travel policies of the individual colleges and
            should not be based on that of City College of San Francisco.

      d) In addition to the above comments, the awardee included with their response additional support for
          various items questioned in the draft report that lacked support at the time of the audit. (See Appendix A.)

       Auditors' Response

       a) We have reviewed the auditee's response and additional submitted documentation. The submitted
          documentation indicates the College advanced the funds and the subawardee was to reimburse the
          College. However, the accounting records indicate that when the College first made the advance, the
          costs were charged as travel expense by City College of San Francisco. Then when the subawardee
          reimbursed the College for the expense, the costs were charged again as subawardee cost. There
          was no evidence in the accounting records to show a reduction in expense for the reimbursement as
          the auditee's response has indicated. Therefore, questioned costs relating to the duplication of costs
          remain as stated.

       b)    OMB Circular A-21 applies to all educational institutions, which require salaries and wages by the
             i nstitution will be supported by activity reports. Therefore, questioned costs relating to salaries due to
             l ack of proper timesheets remain as stated.

       c)   We have reviewed the auditee's response supporting the lodging costs questioned in the draft report.
            Based on our review of the documentation, we reduced our questioned costs ($1,227) relating to the
            l odging costs claimed by the subcontractor, New Hampshire Community.

       d) We have reviewed the additional documentation submitted by the auditee to support various amounts
          questioned in the draft report. Based on our review, we have reduced our questioned costs ($925)
          relating to salary costs claimed by the subcontractor, San Diego Community. We have also reviewed
          additional documentation submitted to support participant support costs questioned.                  The
          documentation was a narrative describing the work performed during the grant period. However, we
          were unable to determine if the narrative was a statement from the participant or the auditee, as there
          was no signature to document who prepared the statement. There was no additional corroborating
          i nformation to identify if the services were actually performed. Therefore, costs questioned relating to
          participant support remain as stated.




                                                          23
                                    CITY COLLEGE OF SAN FRANCISCO
                                        Notes to Financial Schedules
                                From September 1, 1998 to September 30, 2001


Note 1:   Summary of Significant Accounting Policies

          Accounting Basis
          The accompanying financial schedule has been prepared in conformity with National Science
          Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to NSF. The
          basis of accounting utilized in preparation of these reports differs from generally accepted accounting
          principles. The following information summarizes these differences:

            A.   Equity
                 Under the terms of the award, all funds not expended according to the award agreement and
                 budget at the end of the award period are to be returned to NSF. Therefore, the awardee does
                 not maintain any equity in the award and any excess cash received from NSF over final
                 expenditures is due back to NSF.

            B.   Equipment
                 Equipment is charged to expense in the period during which it is purchased instead of being
                 recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
                 the statement of award costs include the cost of equipment purchased during the period rather
                 than a provision for depreciation.
                 The equipment acquired is owned by City College of San Francisco while used in the program for
                 which it was purchased or in other future authorized programs. However, NSF has the
                 reversionary interest in the equipment. Its disposition, as well as the ownership of any proceeds
                 there from, is subject to Federal regulations.

            C.   Inventory
                 Minor materials and supplies are charged to expense during the period of purchase. As a result,
                 no inventory is recognized for these items in the financial schedule.

Note 2:   NSF Cost Sharing and Matching
          The following represents the cost share requirements and actual cost share as of September 30, 2001:
          Cost Sharing DUE-9850325
                              Cost Share       Actual Cost
                               Required       Share Provided       Over/(Under)
           Cost Sharing        $ 37,500           84,455             46,955,


          The College satisfied the cost-sharing requirement by occupying office space donated by the University
          of San Francisco. The office space is approximately 777 square feet with a market value of
          approximately $2.25 per square foot. Based on the market value and square footage occupied, the
          Awardee has exceeded its cost-sharing requirement.

Note 3: Indirect Cost Rates

           Award Number       I ndirect Cost Rate   Base
           DUE-9850325        46%                   Modified Direct Costs (Total direct salaries and
                                                    wages)




                                                        25
APPENDIX - AUDITEE'S COMMENTS TO REPORT
SEP-13-02 06:46 FROM:                                          I D:                               PACE        I 1




       From:
       Sent:         Thursday, August 1, 2002 9:57 AM
       To:
       Cc.
       Subject:      Re: Audit responses




       I n reviewing our reimbursement reports for FY 99, we had reimbursed the faculty for
       their room and board at the Summer Fellows through the travel reimbursements they
       submitted to fiscal. Each of the participants                        - -and
       claimed $ 690 for their room and board. Each of the staff filed a travel claim for their
       expenses. These amounts were then claimed on the reimbursement form submitted
       on 8/4/99 by MATC to CCSF for the period 411199 - 6/30199. I hope this clarifies the
       process used to handle these charges.
       Thanks,




       Madison Area Technical College
       3550 Anderson Street
       Madison WI 53704




       >>>



       I need your help. I simply need some language to include in the responses to the
       auditor for the following. Unfortunately, I need to this by Friday morning.

       Questioned Costs:

       Date 5114199                 Travel $690 Duplication of costs. The costs for lodging
       at a conference were charged by both the Grantee and Sub-Awardee

       Date 5/0799                1   Travel $690     Duplication of costs. The costs for lodging at
       a conference were charged by both the Grantee and Sub-Awardee

                                                    Page 1




             2                                                                                         P.02
                        SEP-04-2002 12:39 415 487 2447 95%
SEP-13- 0 2 06:4e FROM:                                        I D:                              PAGE        1 2/26




         Date 5114/99 -       _ Travel $690 Duplication of costs. The costs for lodging at a
         conference were charged by both the Grantee and Sub-Awardee.


         I plan to state that this is the cost for attending the Bio-Link Summer Fellows Institute.
         The National Center was reimbursed for the regional attendees from the Sub-Awards. If
         you can think of better language, I appreciate it. There was definitely not a double
         charge.



         1855 Folsom Street,
        San Francisco, CA 94103



        www.bio-link.org




                                                                      2




   SEP-04-2002 12:39                      .415 487 247?                     95%                       P.03
    SEP-13-02 08:50 FROM:
	

                                                                                      I D-                                PAGE   20/26
                       Aug 02 02   10:25a	 advanced TECH. CENTERS                       619-3           16S            p.3



        Page: 1 Document Name: un t itled

         Pu44                                                                                                 08/01/02 11:16 A
         Name'
         Type C COMPUTER PRODUCED                                   Check Number                        Check Date 09/08/00

                 ASSIGNMENT EC          Hours            Amount        FUND    ORG       ACCT"     PROG          FR-MDY TO-MDY
           003961-00          UT        10.60            369.93       1010     1501      1301     58010S




       Date: 8/1/ 2     Time:         11:16:34         AM




      SEP-04-2002 12:39                                      • 1 15 487 2477                     9531                     P.11
SEP-13- 0 2 08:50 FROM:
       AUG 02 02 10_250       ADVANCED TECH. CENTERS
                                                             I D:
                                                                           6I9-   3   165
                                                                                                       PAGE
                                                                                                     P.4
                                                                                                                21/26



     Page: 1 Document Name: untitled

      Pu44 .                                                                                08/01/02 11:16 A

      Name
      Type R REDISTRIBUTION               Check Number                                Check Date 09/20/00


        Assignment       EC Hours    Amount   FUND    ORG           ACCT     PROG              FR-MDY TO-MOY
        003861-00        UT 10.80-   368.93- 1010     1501          1301    580105
                         UT  10.80   368.93   2222    1910          1301    0401.20




    Date: 8/1/ 2 Time: 11:16:26 AM




   SEP-04-2002 12:7, 9                 a15 48? 247?                        91S%                         P. 12
